                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2007 and 2006




                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.




                                                                                   Assistant Inspector General for Audit


                                                                  Date Issued: March 31, 2008
                                                                  Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND

                                    TABLE OF CONTENTS
                                                                                           Page
ACRONYMS                                                                                      iii
Management’s Discussion and Analysis
    Mission and Organizational Structure                                                      1
    Financial Highlights                                                                      2
    Performance Goals and Results                                                             3
    Internal Controls and Systems                                                             3
    Known Risks and Uncertainties                                                             4
    Limitations of the Financial Statements                                                   4
Independent Auditors’ Report                                                                  5
FINANCIAL STATEMENTS
    Balance Sheets                                                                           13
    Statements of Net Cost                                                                   14
    Statements of Changes in Net Position                                                    15
    Statements of Budgetary Resources                                                        16

NOTES TO THE FINANCIAL STATEMENTS
    Note 1 – Summary of Significant Accounting Policies                                      17
    Note 2 – Funds with U.S. Treasury                                                        20
    Note 3 – Investments                                                                     21
    Note 4 – Accounts Receivable, Net                                                        22
    Note 5 – Other Liabilities                                                               23
    Note 6 – Status of Budgetary Resources                                                   24
    Note 7 – Reconciliation of Budgetary Resources Obligated
             to Net Cost of Operations                                                       25
    Note 8 – Concentration of Risk                                                           25




i                                              U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                              ii
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND


                                           Acronyms



DCCA          District of Columbia Workmen’s Compensation Act Special Fund
DLHWC         Division of Longshore and Harbor Workers’ Compensation
DOL           Department of Labor
ESA           Employment Standards Administration
FY            Fiscal Year
LHWCA         Longshore Harbor Workers’ Compensation Act
OMB           Office of Management and Budget
OWCP          Office of Workers’ Compensation Programs
U.S.C.        United States Code




iii                                            U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report




                    THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                               iv
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2007 and 2006


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under section 44 of the Longshore Harbor Workers’ Compensation Act
(LHWCA); the Longshore Act Special Fund created under the original Act in 1927 and
the Special Fund under the District of Columbia Workmen’s Compensation Act of 1928
(DCCA). These Funds were established for the primary purpose of equitably distributing
among all employers the liabilities associated with second injury claims (a “second injury”
is an injury to a worker which, in combination with an existing permanent partial
impairment, results in the worker’s increased permanent disability or death).

Organizationally the DCCA Fund is administered by the Employment Standards
Administration (ESA) Division of Longshore and Harbor Workers’ Compensation program
(DLHWC) whose mission is to effectively administer a program of compensation and
medical benefits to cover workers who are injured on the job or suffer from occupational
disease. The DLHWC has direct responsibility for all aspects of the administration of the
Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the Longshore and Harbor Workers’ Compensation statute
as extended to the District of Columbia Act of 1928 are paid from the Fund comprised
primarily of employer contributions (assessments) and administered by the DLHWC. In
fiscal year 2007 and 2006, 603 and 621 injured workers and their dependants received
compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act incorporates Section
10(h) of the LHWCA, which provides annual wage increase compensation (cost of living
adjustments). Fifty percent of this annual wage increase for pre-1972 compensation
cases is paid by Federal appropriated funds, and fifty percent is paid by the Fund through
the annual assessment. Appropriated funding for 10(h) is not reflected in the

1                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006


accompanying financial statements. Appropriated funding is reflected in the Federal
Employees Compensation Act’s Special Benefits Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the Longshore Act. Administrative
services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$11,264,567 in fiscal year 2007. This compares with assessment revenue of
$10,788,519 for fiscal year 2006. During fiscal year 2007 a substantial recovery was
made for the Fund due to activities involving the application of Agreed Upon Procedures
(AUP) on Forms LS-513, Report of Payments (used in the calculation of the annual
assessment), and negotiation/collection of past due assessments. Equally important, the
AUP activities have uncovered common industry reporting errors and other industry
record-keeping mistakes which, when discovered, have been eliminated. The on-going
AUP program recovered $1,093,355 in fiscal year 2007; however, no recoveries were
made in fiscal year 2006 for the Fund. These recoveries have and will continue to reduce
carrier assessments and are reflected in the Assessments line on the Statement of
Changes in Net Position.

In addition, investment income for the Fund was $249,589 for fiscal year 2007 compared
to $154,528 for fiscal year 2006. The average interest rate earned during fiscal year 2007
was 5.12% compared to 4.61% for fiscal year 2006.

The Fund’s costs remained relatively stable compared to fiscal year 2007; $9,817,496 for
fiscal year 2007 compared to $10,448,159 for fiscal year 2006. Proceeds of the Fund are
used for payments under: section 8(f) for second injury claims; section 10(h) for initial
and subsequent annual adjustments in compensation for permanent total disability or
related death from injuries which occurred prior to the effective date of the 1972 LHWCA
amendments; and section 18(b) for compensation to injured workers in cases of
employer default.



U.S. Department of Labor—Office of Inspector General                                          2
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006


Performance Goals and Results

DCCA supports the Department of Labor’s Strategic Goal 4 – Strengthened Economic
Protections. This goal broadly promotes the economic security of workers and families. In
particular, the DCCA program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in
ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The DCCA program assists in meeting this outcome
goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries.
These targets were achieved. The assessments were sufficient to cover the costs, and
no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessments is a very small unit comprised of four
employees and one supervisor, all working in very close proximity to each other. Much of
the oversight, evaluation, monitoring, and control and almost all of the supervisory
activity is informal, done on a face-to-face basis. Similarly, each of the district offices is in
itself a small unit, operating in the same fashion as the Branch of Financial Management,
Insurance and Assessments.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.




3                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-08-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2007 and 2006


Known Risks and Uncertainties

The DCCA Fund makes assessments on authorized insurers and self-insurers one year
at a time for current expenses; there is no reserve for future Fund obligations. In keeping
with the requirement of section 44 of the Longshore Act, obligations are paid as they are
incurred. Assessments are based on compensation and medical benefits paid in the prior
calendar year. The District of Columbia Workmen’s Compensation Act of 1928 has been
repealed and the DC Special Fund only assesses based on payments in cases that
arose prior to July 26, 1982, the annual Special Fund assessment is assessed against a
shrinking base of industry payments. These payments are concentrated among a
relatively few insurance carriers and self insured employers. For example, the largest
nine insurance carriers and self-insured employers alone fund over 63% of the District of
Columbia assessments. If one or more of the largest payers became insolvent and was
unable to pay their assessment obligations, temporary collection issues would result,
necessitating special, unscheduled assessments or other actions to keep the Special
Fund funded for current liabilities.

One insurance company group is currently in run-off and is being operated by the State
of Illinois Insurance Department. The group is responsible for nearly 12.6% of the total
District of Columbia assessments. If the three carriers in the group were no longer able to
pay their assessments, the total District of Columbia assessment on solvent carriers
would increase significantly.
Limitations of the Financial Statements

The following limitations are part of the financial statements:

•   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, U.S.C. 3515 (b).
•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by OMB, the statements are different from the
    financial reports used to monitor and control budgetary resources which are prepared
    from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.

U.S. Department of Labor—Office of Inspector General                                          4
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                           KPMG LLP
                           2001 M Street, NW
                           Washington, DC 20036



                          Independent Auditors’ Report

Ms. Victoria Lipnic, Assistant Secretary
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) District of Columbia Workmen’s Compensation Act Special Fund
(the Fund) as of September 30, 2007 and 2006, and the related statements of
net cost, changes in net position and budgetary resources (hereinafter referred to
as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2007 audit, we also considered the Fund’s
internal controls over financial reporting and performance measures and tested
the Fund’s compliance with certain provisions of applicable laws and regulations
that could have a direct and material effect on these financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2007
and 2006, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

In fiscal year 2007, the Fund changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations, in accordance with
Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements.

Our consideration of internal control over financial reporting resulted in the
identification of significant deficiencies related to weaknesses in controls over
accounts receivable and financial reporting. However, we do not consider these
significant deficiencies to be material weaknesses.

We noted no deficiencies involving the design of the internal control over the
existence and completeness assertions related to key performance measures.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and OMB Bulletin No. 07-04, Audit

5                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-005-04-432
                          KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                          a member of KPMG International, a Swiss cooperative.
                        District of Columbia Workmen’s Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




Requirements for Federal Financial Statements.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting and
performance measures; our tests of the Fund’s compliance with certain
provisions of applicable laws and regulations; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s District of Columbia Workmen’s Compensation Act Special Fund as of
September 30, 2007 and 2006, and the related statements of net cost, changes
in net position, and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s District
of Columbia Workmen’s Compensation Act Special Fund as of September 30,
2007 and 2006, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

As discussed in Note 1(b) to the financial statements, the Fund changed its
method of reporting the reconciliation of budgetary resources obligated to the net
cost of operations in fiscal year 2007, based on new reporting requirements
under OMB Circular A-136.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136. We
have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we
express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and would
not necessarily identify all deficiencies in the internal control over financial
reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their

U.S. Department of Labor—Office of Inspector General                                 6
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



assigned functions, to prevent or detect misstatements on a timely basis. A
significant deficiency is a control deficiency, or combination of control
deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally
accepted accounting principles such that there is more than a remote likelihood
that a misstatement of the Fund’s financial statements that is more than
inconsequential will not be prevented or detected by the Fund’s internal control
over financial reporting. A material weakness is a significant deficiency, or
combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be
prevented or detected by the Fund’s internal control.

In our fiscal year 2007 audit, we consider the deficiencies described in Exhibit I to
be significant deficiencies in internal control over financial reporting. However,
we believe that none of the significant deficiencies described in Exhibit I are
material weaknesses.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

Our tests of internal control over performance measures, as described in the
Responsibilities section of this report, disclosed no deficiencies involving the
design of the internal control over the existence and completeness assertions
related to key performance measures.

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of
this report disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards and OMB
Bulletin No. 07-04.

                                      * * * * *
RESPONSIBILITIES

Management’s Responsibilities.

Management is responsible for the financial statements, including:

•   Preparing the financial statements in conformity with U.S. generally accepted
    accounting principles;

•   Preparing the Management’s Discussion and Analysis (including the
    performance measures);

•   Establishing and maintaining effective internal control; and

7                                 U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 22-08-005-04-432
                          District of Columbia Workmen’s Compensation Act Special Fund
                                    Financial Statements and Independent Auditors’ Report



•   Complying with laws and regulations applicable to the Fund.

In fulfilling this responsibility, management is required to make estimates and
judgments to assess the expected benefits and related costs of internal control
policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2007 and 2006 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2007 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards
and OMB Bulletin No. 07-04. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to express an opinion on
the effectiveness of the Fund’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting.

U.S. Department of Labor—Office of Inspector General                                   8
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect
to internal control related to performance measures determined by management
to be key and reported in the Management’s Discussion and Analysis, we
obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal
controls had been placed in operation. We limited our testing to those controls
necessary to report deficiencies in the design of internal control over key
performance measures in accordance with OMB Bulletin 07-04. However, our
procedures were not designed to provide an opinion on internal control over
reported performance measures and, accordingly, we do not provide an opinion
thereon.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2007 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

The Fund’s response to the findings identified in our audit are presented in
Exhibit I. We did not audit the Fund’s response and, accordingly, we express no
opinion on it.

RESTRICTED USE

This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.




March 28, 2008




9                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 22-08-005-04-432
                        District of Columbia Workmen’s Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report

                                                                 Exhibit I
Controls Over Accounts Receivable and the Financial Reporting Process
Need Improvement

During the FY 2007, we noted the following:
•   DCCA calculates the allowance for doubtful accounts receivable as 25% of
    the outstanding accounts receivable balance. However, management could
    not provide support for the rate being used;
•   Accounts receivable in the draft DCCA financial statements were overstated
    by $121,341 as a result of three Longshore benefit overpayments being
    incorrectly reported as accounts receivable of DCCA program instead of the
    Longshore program. This error was subsequently corrected; and
•   Management could not provide supporting documentation for a journal entry
    for an amount of $122,784. The journal entry reduced the year-end unpaid
    obligations balance and increased the unobligated balance available. The
    posting of this journal entry resulted in a difference between the unpaid
    obligations balance and the balance of accrued benefits payable reported on
    the balance sheet that was not identified as part of management’s review of
    the financial statements.

Per GAO’s Standards of Internal Control in the Federal Government, “Internal
control should generally be designed to assure that ongoing monitoring occurs in
the course of normal operations. It is performed continually and is ingrained in
the agency’s operations. It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in
performing their duties.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control,
states that “The agency head must establish controls that reasonably ensure that
obligations and costs are in compliance with applicable laws; funds, property,
and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures applicable to agency
operations are properly recorded and accounted for to permit the preparation of
accounts and reliable financial and statistical reports . . .”

These errors noted above were caused by a lack of a thorough management
review of: journal entries; periodic accounts receivable analysis; the computation
of the allowance for doubtful accounts; and the draft financial statements.
We recommend that the Fund:

    1. Establish and enforce more formal management review over journal
       entries, accounts receivable, the allowance computation, and the draft
       financial statements;
    2. Establish formal policies and procedures for periodically reviewing and


U.S. Department of Labor—Office of Inspector General                                10
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report


        analyzing outstanding accounts receivables and requiring more formal
        communication regarding credit and corrections between the program and
        accounting offices;
     3. Develop a methodology for estimating the allowance for doubtful accounts
        that is based upon a documented analysis of historical collection and
        write-off trends. This analysis should be updated annually to take into
        consideration actual results and changes in the industry; and
     4. Analyze the relationship between the budgetary and proprietary accounts
        on a quarterly basis.

Management’s Response:
     1. Management agrees with the recommendation. ESA has in place a formal
        process of review for all journal entries as well as the preparation of the
        Financial Statements. ESA will ensure that this process is strictly adhered
        to and that a thorough review takes place and includes all necessary
        signatures or initials.    Additionally, ESA has established a procedure
        whereby the allowance amount for this fiscal year is split between the
        Assessment and Other Accounts Receivable balance.                 The total
        allowance amount is recorded in the “Allowance for Loss on Accounts
        Receivable,” 1319 account, while the assessment portion is recorded in
        the “Contra Revenue for Appropriations Receipts Income,” 5439 account,
        and Other Accounts Receivable portion is recorded in the “Operating
        Expense – Bad Debt,” 6104 account. This accounting will allow for the
        proper classification in the year end Financial Statements.
     2. Management agrees with the recommendation.           Formal procedures
        establishing monthly review and analysis of outstanding receivables with
        formal communication of credit and corrections between the program and
        accounting offices will be implemented by June 30, 2008.
     3. Management       agrees with the recommendation. Methodology for
        estimating the allowance for doubtful debts, based on historical collection
        and write-off trends, with annual updates to take into consideration actual
        results and changes in the industry, will be developed during the fiscal
        year, and implemented by September 30, 2008.
     4. Management agrees with the recommendation.       ESA has developed a
        worksheet to provide a comparison of the SF 133 report to the proprietary
        and the budgetary calculation. Any differences are noted. This analysis
        was completed for the 12-31-07, reporting quarter, and applied
        retroactively for the 9-30-07, quarter.
Auditors’ Response:

Based on management’s response, we consider these                 recommendations
resolved and open.


11                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 22-08-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                          12
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2007 and 2006


                         Assets                                        2007              2006
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                            $      75,274            75,967
   Investments (Note 3)                                             6,585,000         5,611,000
   Accounts receivable (Note 4)                                         1,460               784
            Total intra-governmental assets                         6,661,734         5,687,751
Accounts receivable, net of allowance (Note 4)                        327,411           411,594
           Total assets                                         $   6,989,145         6,099,345
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                      $     297,923           282,571
  Deferred revenue                                                  2,500,000         2,633,150
  Other liabilities (note 5)                                           57,024           746,086
            Total liabilities                                       2,854,947         3,661,807
Net position:
  Cumulative results of operations                                  4,134,198         2,437,538
            Total liabilities and net position                  $   6,989,145         6,099,345


See accompanying notes to financial statements.




13                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-08-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                                      Statements of Net Cost
                            Years ended September 30, 2007 and 2006


                                                                       2007               2006
Special fund net cost of operations:
    Second injury compensation, Section 8(f)                    $    8,990,515          9,620,081
    Wage increase compensation, Section 10(h)                          613,237            588,473
    Compensation payment for self-insurer in default,
        Section 18(b)                                                  213,744            239,605
             Net cost of operations                             $    9,817,496        10,448,159


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                                14
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                           Years ended September 30, 2007 and 2006


                                                                     2007                2006
Cumulative results of operations, beginning                    $    2,437,538          1,942,650
Budgetary financing sources:
  Non-exchange revenues:
    Investment interest                                               249,589           154,528
    Assessments                                                    11,264,567        10,788,519
            Total non-exchange revenues                            11,514,156        10,943,047
Net cost of operations                                             (9,817,496)      (10,448,159)
            Net position, end of period                        $    4,134,198         2,437,538


See accompanying notes to financial statements.




15                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                             DISTRICT OF COLUMBIA WORKMEN'S
                             COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                            Years ended September 30, 2007 and 2006


                                                                       2007                 2006
Budgetary resources:
  Unobligated balance, brought forward                        $      5,529,106             4,815,948
  Budget authority
    Appropriations received (assessments)                           11,060,442           10,867,049
           Total budgetary resources                          $     16,589,548           15,682,997
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                                   $     10,225,272           10,153,891
  Unobligated balances - available:
     Other available - exempt from apportionment                     6,364,276            5,529,106
            Total status of budgetary resources               $     16,589,548           15,682,997
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1            $        159,787              251,997
  Obliations incurred, net                                          10,225,272           10,153,891
  Less: Gross Outlays                                              (10,087,136)         (10,246,101)
  Obligated balance, net, end of period
    Unpaid obligations                                        $        297,923               159,787
Outlays:
 Gross Outlays                                                $     10,087,136           10,246,101
 Net outlays                                                  $     10,087,136           10,246,101


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                               16
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                                  September 30, 2007 and 2006


 (1)    Summary of Significant Accounting Policies
       The principal accounting policies which have been followed by the Fund in preparing the
       accompanying financial statements are set forth below.
       (a)   Reporting Entity
             These financial statements present the financial position, net cost of operations,
             changes in net position, and budgetary resources of the District of Columbia
             Workmen’s Compensation Act Special Fund (Fund). The Fund is administered by
             the Employment Standards Administration (ESA) which is an agency within the
             United States Department of Labor. Within ESA, the Division of Longshore and
             Harbor Workers’ Compensation has direct responsibility for administration of the
             Fund. The Fund offers compensation, and in certain cases, medical care payments
             to District of Columbia employees for work related injuries or death incurred on or
             before July 26, 1982. Effective July 26, 1982, the District of Columbia Workmen’s
             Compensation Act was amended whereby the Mayor of the District of Columbia
             became responsible for administration and operation of a separate special fund to
             cover post July 26, 1982, injury cases.
             Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h)
             provides annual wage increase compensation (cost of living adjustments). Fifty
             percent of this annual wage increase for pre-1972 compensation cases is paid by
             Federal appropriated funds and fifty percent is paid by the Fund through the annual
             assessment. Appropriated funding for 10(h) is not reflected in the accompanying
             financial statements. Appropriated funding is reflected in the Federal Employees
             Compensation Act’s Special Benefit Fund. Also, these financial statements do not
             include the Special Fund administered by the Mayor of the District of Columbia for
             injury cases occurring after July 26, 1982.
       (b)   Basis of Accounting and Presentation
             These financial statements present the financial position, net cost of operations,
             changes in net position and budgetary resources, in accordance with U.S. generally
             accepted accounting principles and the form and content requirements of OMB
             Circular A-136. These financial statements have been prepared from the books and
             records of the Fund. These financial statements are not intended to present, and do
             not present, the full cost of the District of Columbia Workmen’s Compensation
             (DCCA) program administered under the Longshore and Harbor Workers’
             Compensation Act Program (Longshore Program). In addition to the Fund costs
             presented in these statements, the full cost of the DCCA portion of

17                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                                 September 30, 2007 and 2006


           the Longshore Program would include certain direct costs of ESA in the form of
           salaries and expenses for administration of the Longshore Program and allocated
           costs of ESA and other DOL agencies incurred in support of the Longshore
           Program. The full cost of the DCCA portion of the Longshore Program is included in
           the Consolidated Financial Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized when
           earned, and expenses are recognized when a liability is incurred. Budgetary
           accounting facilitates compliance with legal constraints on, and controls over, the
           use of federal funds. These financial statements are different from the financial
           reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
           Fund’s use of budgetary resources.
           Effective for FY 2007, OMB Circular A-136 has removed the Statement of Financing
           as a Principal Financial Statement. The purpose of this Statement was to explain
           how budgetary resources obligated during the period relate to the net cost of
           operations for the reporting entity. OMB decided that this reconciliation would be
           better understood as a note rather than a principle statement. This reconciliation is
           disclosed in Note 7, Reconciliation of Budgetary Resources Obligated to Net Cost of
           Operations.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts and
           disbursements are processed by the U.S. Treasury. The Funds with U.S. Treasury
           are trust funds that are available to pay current liabilities and finance authorized
           purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of unamortized
           premiums or discounts, which approximate market value. Premiums or discounts
           are amortized on a straight-line basis, which approximates the effective interest
           method. The Fund’s intent is to hold investments to maturity, unless they are
           needed to finance claims or otherwise sustain the operations of the Fund. No
           provision is made for unrealized gains or losses on these securities because, in the
           majority of cases, they are held to maturity.




U.S. Department of Labor—Office of Inspector General                                              18
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                                 September 30, 2007 and 2006




     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for uncollectible
           accounts. The allowance is estimated based on past experience in the collection of
           the receivables and an analysis of the outstanding balances. Also included as
           benefit overpayments receivable are Fund overpayments to beneficiaries made to
           individuals primarily from awarded compensation orders and corrections of payment
           computations.
     (f)   Accrued Benefits Payable
           The District of Columbia Workmen’s Compensation Special Fund provides
           compensation and medical benefits for work related injuries to employees of the
           District of Columbia that were incurred on or before July 26, 1982. The Fund
           recognizes a liability for disability benefits payable to the extent of unpaid benefits
           applicable to the current period. It does not include a liability for those estimated
           claims to be presented and paid by the fund related to covered workers in future
           years. Ultimate responsibility for the payment of such claims rests with the
           employer organizations.
     (g)   Assessment Overpayment by Carriers
           Assessment overpayments are current liabilities and are to be refunded upon
           insurance carrier or self-insured employer’s request or applied to reduce future
           assessments.
     (h)   Deferred Revenue
           Deferred revenues represent the unearned assessment revenues as of
           September 30, the Fund’s accounting year end. The annual assessments cover a
           calendar year and, accordingly, the portion extending beyond September 30 has
           been deferred.
     (i)   Financing Sources Other Than Exchange Revenue
           Non-exchange revenues arise from the Federal government’s power to demand
           payments from and receive donations from the public. Non-exchange revenues are
           recognized by the Fund for assessments levied against the public and interest
           income from investments.


19                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-08-005-04-432
                                               District of Columbia Workmen’s Compensation Act Special Fund
                                                         Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                                      September 30, 2007 and 2006




              The Fund’s primary source of revenue is annual assessments levied on insurance
              carriers and self-insured employers. Assessments are recognized as non-exchange
              revenue when due. Included in assessment revenues in the accompanying
              Statement of Changes in Net Position are recoveries of amounts reassessed to
              carriers related to prior years. These reassessments primarily result from the
              application of Agreed Upon Procedures (AUP) on reported carrier data. Recoveries
              amounted to $1,093,355 for the fiscal year ended September 30, 2007; however, no
              recoveries were made during fiscal year ended September 30, 2006 as the AUP
              process was just introduced in FY 2007. The Fund also receives interest on Fund
              investments and on Federal funds in the possession of non-Federal entities.
 (2)    Funds with U.S. Treasury
       Funds with U.S. Treasury at September 30, 2007 and 2006 consisted of cash deposits of
       $75,274 and $75,967 respectively. There was $24 in cash deposits at September 30,
       2007 and $47 in cash deposits at September 30, 2006 being held as security by authority
       of Section 32 of the Longshore and Harbor Workers’ Compensation Act in the Funds with
       U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers
       and are available for payment of compensation and medical benefits to covered
       employees of the defaulted companies.
       Funds with U.S. Treasury at September 30, 2007 consisted of the following:
                                                        Entity Assets
                                 Unobligated     Unobligated     Obligated
                                  Balance         Balance       Balance Not    Total       Non-entity
       (In Dollars)               Available      Unavailable Yet Disbursed Entity Assets    Assets      Total

       Special Fund          $           —               —         75,274        75,274            —      75,274



       Funds with U.S. Treasury at September 30, 2006 consisted of the following:
                                                        Entity Assets
                                 Unobligated     Unobligated     Obligated
                                  Balance         Balance       Balance Not    Total       Non-entity
       (In Dollars)               Available      Unavailable Yet Disbursed Entity Assets    Assets      Total

       Special Fund         $            —               —         75,967       75,967            —      75,967




U.S. Department of Labor—Office of Inspector General                                                               20
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                                   September 30, 2007 and 2006


 (3)    Investments
       Investments at September 30, 2007 and 2006 consisted of the following:
                                                             September 30, 2007
                                           Face               Net        Market
       (In Dollars)                        Value           Discount       Value             Value
       Intragovernmental securities:
          Marketable                   $ 6,585,000               —        6,585,000       6,585,000


                                                             September 30, 2006
                                           Face               Net        Market
       (In Dollars)                        Value           Discount       Value             Value
       Intragovernmental securities:
          Marketable                   $ 5,611,000               —        5,611,000       5,611,000


       Investments of $57,000 and $54,100 at September 30, 2007 and 2006, respectively are
       being held as security by authority of Section 32 of the Longshore and Harbor Workers’
       Compensation. Section 32 investments relate to the default of self-insured employers
       and are restricted. These investments are available for payment of compensation and
       medical benefits to covered employees of the defaulted companies. Investments at
       September 30, 2007 and 2006 consist of overnight securities. Investments at
       September 30, 2007, bear an interest rate of 3.99 % compared to an interest rate of
       5.03% for September 30, 2006. Interest rates on securities bought and sold during fiscal
       year 2007 ranged from 2.16% to 5.35% compared to 3.46% to 5.30% for fiscal year
       2006.




21                                                 U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 22-08-005-04-432
                                             District of Columbia Workmen’s Compensation Act Special Fund
                                                       Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND
                                      Notes to the Financial Statements
                                        September 30, 2007 and 2006




 (4)    Accounts Receivable, Net
       Accounts receivable at September 30, 2007 and 2006 consisted of the following:
       (In Dollars)                                                             2007                  2006
       Entity assets:
       Intragovernmental:
          Interest Receivable                                          $          1,460      $            784
             Total Intragovernmental accounts receivable               $          1,460      $            784

          Benefit overpayments                                         $        341,425      $         56,433
          Assessments receivable                                                 95,123               492,358
          Less: allowance for doubtful accounts                                (109,137)             (137,197)
            Total accounts receivable from the public, net             $        327,411      $        411,594

       Assessments receivable represent the unpaid annual assessments from the current and
       prior years. Accounts receivable from overpayments to claimants arise primarily from
       amended compensation orders and corrections of payment computations. These
       receivables are being primarily recovered by partial and total withholding of benefit
       payments.
       Changes in the allowance for doubtful accounts during fiscal year 2007 and fiscal year
       2006 consisted of the following:
                                                                        2007
                                       Allowance        Write      Revenue                           Allowance
       (In Dollars)                  October 1, 2006    Offs      Adjustment    Bad Debt         September 30, 2007

       Entity assets:
         Benefit overpayments    $          (14,108)        —              —      (71,249)                   (85,357)
         Assessment receivable             (123,089)        —              —       99,309                    (23,780)

                                 $         (137,197)        —              —       28,060                 (109,137)




U.S. Department of Labor—Office of Inspector General                                                            22
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND
                                         Notes to the Financial Statements
                                           September 30, 2007 and 2006

                                                                                   2006
                                          Allowance           Write            Revenue                           Allowance
       (In Dollars)                     October 1, 2005       Offs            Adjustment       Bad Debt      September 30, 2006

       Entity assets:
         Benefit overpayments      $              (3,896)             —              —           (10,212)              (14,108)
         Assessment receivable                  (124,113)             —              —             1,024              (123,089)

                                    $           (128,009)             —              —            (9,188)             (137,197)



 (5)    Other Liabilities
       Other liabilities at September 30, 2007 and 2006 consisted of the following current
       liabilities:
       (In Dollars)                                                                2007                   2006
       Other liabilities:
          Assessment overpayments by carriers                             $                —              691,939
          Defaulted employer liability:
            Held in investments                                                     57,000                 54,100
            Held in cash                                                                24                     47
                                                                                    57,024                 54,147
                      Total other liabilities                             $         57,024                746,086


       Assessment overpayments are to be refunded upon request or applied to reduce future
       assessments.
       Defaulted employer liability relates to the funds and investments held by the District of
       Columbia Special Fund which are being held as security by authority of Section 32 of the
       Act. These funds and investments are available for compensation and medical benefits
       to covered employees of the defaulted companies. Management estimates that these
       funds and investments held will be sufficient to cover the future benefits associated with
       the covered employees.




23                                                          U.S. Department of Labor—Office of Inspector General
                                                                                Report Number: 22-08-005-04-432
                                          District of Columbia Workmen’s Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report

                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND
                                     Notes to the Financial Statements
                                      September 30, 2007 and 2006


 (6)    Status of Budgetary Resources
       (a)   Apportionment Categories of Obligations Incurred
             Obligations incurred reported on the Statement of Budgetary Resources in FY 2007
             and FY 2006 consisted of the following:
             (In Dollars)                                                    2007             2006
             Direct Obligations:
                Exempt from apportionment                           $    10,225,272         10,153,891


       (b)   Explanation of Differences Between the Statement of Budgetary Resources
             and the Budget of the United States Government
             A reconciliation of budgetary resources, obligations incurred and outlays, as
             presented in the Statement of Budgetary Resources to amounts included in the
             Budget of the United States Government for the year ended September 30, 2006 is
             shown below:
                                                                                2006
                                                               Budgetary      Obligations
             (Dollars in Millions)                             Resources       Incurred       Outlays
             Statement of Budgetary Resources              $            16            10             10

               Longshore and Harbor Workers Compensatio             204               137         135

             Budget of the United States Government        $        220               147         145




U.S. Department of Labor—Office of Inspector General                                                      24
Report Number: 22-08-005-04-432
District of Columbia Workmen’s Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                                DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND
                                   Notes to the Financial Statements
                                     September 30, 2007 and 2006


 (7)    Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                           2007            2006
         Obligations incurred                                       $   10,225,272     10,153,891
                    Total resources used to finance activities          10,225,272     10,153,891
         Resources used to finance items not part of the
           net cost of operations
           Resources that finance the acquisition of assets                       —        (10,522)
                    Total resources used to finance items
                      not part of the net cost of operations                      —        (10,522)
                    Total Resources used to finance the
                      net cost of operations                            10,225,272     10,143,369
         Components not requiring or generating resources:
           Revaluation of assets and liabilities                                —           5,284
           Other                                                          (407,776)       299,506
                    Total components of net cost of operations
                      that will not require or generate resources         (407,776)       304,790
                         in the current period
                    Net cost of operations                          $    9,817,496     10,448,159




 (8)    Concentration of Risk
       The Fund makes assessments to authorized insurers and self-insurers one year at a
       time for current expenses; there is no reserve for future Fund obligations. In keeping
       with the requirement of section 44 of the Longshore Act, obligations are paid as they are
       incurred. Assessments are based on compensation and medical benefits paid in the
       prior calendar year. As previously discussed, the District of Columbia Workmen’s
       Compensation Act of 1928 has been repealed and the Fund only assesses based on
       payments in cases that arose on or before July 26, 1982. Therefore, the annual Special
       Fund assessment is assessed for a shrinking population of claims. These assessments
       are concentrated among a relatively few insurance carriers and self insured employers.
       For example, the largest nine insurance carriers and self insured employers alone fund
       over 63% of the Fund assessments.




25                                                 U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 22-08-005-04-432
